of NSF' s,Division


(Complainant
the
      -         #1) of -andw-t
                                CLOSEOUT FOR M96110037




                                                       -
                                                       -
officers in his division. The division dimtor had been contacted by
                                       -
                                            The complainantshad submitted se~&te and
unrelated propo&ls that had b e e i z w e d by NSF'S
          program.' The program officer for this program what(se-
subject). Both complainants sought NSF support to acquire f               '
                                                                                           director
                                                                                           (the
division director), brought us evidence of possible ethical improprieties by one of the program

                                                                              (Complainant #2) of



                                                                                   b (research
                                                                                              '




materials) previously housed at other institutions. The other institutions had decided to stop
maintaining the facilities necessary to support scientific studies using these research materials.
In their proposals, the complainants sought to acquire the research materials in order to
enhance their institutions' capacity to support innovative research.

        The complainants expressed concern that the program officer may have divulged
confidential information about their proposed work and improperly suggested to scientists at
other institutions that those institutions acquire the research materials. The complainants'
evidence also raised the possibility that the program officerhad acted to advance her own
career inte~ests,and not out of a disinterested concern to make the best use of scarce NSF
research funds. In addition, the complainants were concerned that the division had an
unarticulated policy that precluded funding proposals such as theirs and that their proposals
had not received a fair review.

        OIG interviewed the complainants, the subject, and the division dkctor. We also
interviewed a scientist/administrato~from a university with which neither complainant was
          and to whom the program officer allegedly made inappropriate comments. We
examined a series of electronic mail messages between 'the complainants and the program
officer, some of which allegedly contained evidence of improper actions by the program
officer.




                                       Page 1 of 3                              M96-37
                                 CLOSEOUT FOR M96110037

        After examining the facts in this case, we concluded that the program officer was not
guilty of serious ethical transgressions. She did not actually divulge confidential information
from pending or declined proposals to persons not entitled to such information, nor did she
explicitly suggest that a scientist or institution seek to perform work originally proposed to NSF by
another scientist or institution. OIG found no evidence to contradict the program officer's assertion
that she acted at all times in accordance with her understanding of her responsibilities as a program
officer and not from any self interested motive.

        OIG also concluded, however, that the program officer used poor judgment in two
incidents and thereby created an appearance of impropriety. In one incident, the program
officer mentioned to Complainant #2 that certain research materials might need to be housed at
a new institution. From the program officer's general description of the materials,
Complainant #2 was able to infer that the program officer was referring to the materials that
were the focus of Complainant #l's proposal. Complainant #2's inference was one that a
knowledgeable member of this small research community could reasonably be expected to
make. The program officer did not suggest or intend that Complainant #2 perform a project
originally proposed to NSF by Complainant #I, but we concluded that the program officer's
action predictably created the appearance that she might be making such a suggestion. If the
program officer had made such a suggestion, this would have been a serious breach of the
confidentiality with which NSF promises to review proposals and a misappropriation of the
ideas in Complainant #l's proposal.
                                  4




        In the second incident, during a conversation with the scientist/administrator, the
program officer discussed the research materials that were the focus of Complainant #2's
proposal and the capacity of the administrator's university to house them. The administrator
did not interpret the conversation as a tacit invitation to his university to try and acquire these
materials, but the complainant, when he learned of the conversation from the program officer,
did interpret the conversation this way. As in the first instance, we concluded that the
program officer did not make or intend to make an inappropriate invitation, but we also
concluded that the program officer should have been sensitive to the appearance her action
might create and scrupulous in avoiding that appearance.

       OIG learned that the program officer, who had been at NSF for nearly a year at the
time these two incidents occurred, had previously been warned orally about the dangers of
being too proactive in situations comparable to this.

       We sent the division director a memorandum reporting our factual determinations. We
recommended that he send the program officer a confidential written message expressing
disapproval of her actions and disappointment in the poor judgment she showed in these two
incidents. The division director accepted our recommendation.

      OIG determined that the NSF program had appropriately documented the bases for its
recommendations that the complainants' proposals be declined. We concluded that the
complainants' concerns about the criteria the division used in evaluating proposals such as


                                        Page 2 of 3
                               CLOSEOUT FOR M96110037

theirs were program management matters. We noted that the complainants had received timely
notice of their rights to a reconsideration of NSF's decisions regarding their proposals.

       This inquiry is closed and no further action will be taken on this case.

cc: Acting Deputy Assistant Inspector General-Oversight; Assistant Inspector General-
Oversight; IG




                                      Page 3 of 3
